LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 16, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1031:

ERIN CAPRON; JEFFREY PENEDO; CULTURAL CARE, INC., D/B/A
CULTURAL CARE AU PAIR V. OFFICE OF THE ATTORNEY GENERAL
OF THE COMMONWEALTH OF MASSACHUSETTS; MAURA T. HEALEY,
IN HER CAPACITY AS A TTORNEY G ENERAL OF THE
COMMONWEALTH OF MASSACHUSETTS

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Current and Former Au Pairs referenced above contains 3,136 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 16th day of April 2020.

